CASE NO. ________ (CAPITAL CASE)
IN THE SUPREME COURT OF THE UNITED STATES
____________________________________________________________
JOE MICHAEL LUNA,
Petitioner,
v.
BOBBY LUMPKIN, DIRECTOR,
Respondent.
____________________________________________________________

PETITIONER’S MOTION AND AFFIRMATION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Joe Michael Luna, through counsel, respectfully moves for leave to
proceed in forma pauperis and submits as follows:
1.

This case is before the Court on a petition for writ of certiorari.

2.

Joe Michael Luna is a death sentenced prisoner in Texas.

3.

On June 3, 2015, the United States District Court for the Western

District of Texas appointed counsel to represent Petitioner in this capital habeas
proceeding, but required him to pay the $5 filing fee. A copy of that Order is
attached.
4.

On January 7, 2019, the Fifth Circuit docketed his appeal and allowed

him to proceed in forma pauperis. A copy of the docket is attached which indicates
“Fee Status: In Forma Pauperis.”

5.

Petitioner remains incarcerated today and there has been no change in

his financial status. He is without funds to secure the services necessary to proceed
in this Court (e.g., printing fees, etc.) or to pay any fees.
6.

Undersigned counsel affirms that all statements related above are true

and correct.
WHEREFORE, Petitioner requests that this Court allow him to proceed in

forma pauperis.
Respectfully submitted,
/s/ Stuart B. Lev
STUART BRIAN LEV
Assistant Federal Defender
Federal Community Defender Office
for the Eastern District of Pennsylvania
The Curtis Center – Suite 545 West
Independence Square West
Philadelphia, PA 19106
(215) 928-0520
stuart_lev@fd.org
Counsel for Petitioner, Joe Michael Luna
Dated: August 12, 2021

2

Case 5:15-cv-00451-XR Document 2 Filed 06/03/15 Page 1 of 6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
JOE MICHAEL LUNA,
TDCJ No. 999509,
Petitioner,
V.
WILLIAM STEPHENS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

CIVIL NO. SA-15-CA-451-XR

ORDER APPOINTING COUNSEL AND SETTING DEADLINES
The matters before this Court are (1) Petitioner’s application for leave to proceed In Forma
Pauperis, submitted as attachment 1 to Petitioner’s motion for appointment of counsel, filed June
1, 2015 (ECF no. 1-1), and (2) Petitioner’s motion for appointment of counsel, filed June 1, 2015
(ECF no. 1), and (3) the status of this case.
Background
In March, 2006, Petitioner pled guilty in open court to capital murder in connection with the
fatal strangulation of Michael Paul Andrade in the course of the robbery of Andrade and the burglary
and arson of Andrade’s apartment. A Bexar County jury answered the Texas capital sentencing
special issues favorably to the prosecution and the state trial court imposed a sentence of death. The
Texas Court of Criminal Appeals affirmed Petitioner’s capital murder conviction and death sentence
on direct appeal. Luna v. State, 268 S.W.3d 594 (Tex. Crim. App. 2008). The United States
Supreme Court denied certiorari on October 5, 2009. Luna v. Texas, 558 U.S. 1093 (2009).
Petitioner filed an application for state habeas corpus relief which the Texas Court of Criminal

Case 5:15-cv-00451-XR Document 2 Filed 06/03/15 Page 2 of 6

Appeals denied in an unpublished per curiam Order in which it adopted most of the state habeas trial
court’s findings of fact and conclusions of law. Ex parte Joe Luna, 2015 WL 1870305, WR-70,51101 (Tex. Crim. App. April 22, 2015).
Filing Fee and IFP Application
Petitioner has neither paid the five dollar filing fee in this cause nor filed a complete
application for leave to proceed In Forma Pauperis with the accompanying certificate of inmate trust
account available from Petitioner’s TDCJ facility law librarian. The Court will direct Petitioner to
either pay the modest filing fee in this cause or submit to the Clerk the necessary application for
leave to proceed In Forma Pauperis with all necessary documentation indicating Petitioner is
currently unable to pay the filing fee. Petitioner is advised he may obtain a certified copy of his
TDCJ inmate trust account statement from the law librarian at his TDCJ facility. Payment of the five
dollar filing fee in this cause does not render Petitioner ineligible for appointment of counsel in this
cause.
Motion for Appointment of Counsel
Petitioner’s state habeas counsel, attorney Michael C. Gross, filed a motion for appointment
of counsel on Petitioner’s behalf requesting that this Court appoint qualified counsel to represent
Petitioner in this federal habeas corpus proceeding. The Supreme Court concluded in its opinion in
McFarland v. Scott, 512 U.S. 849, 855-58 (1994), that a state prisoner facing a death sentence
possessed a qualified statutory right under former 21 U.S.C. Section 848(q)(4)(B) to the appointment
of counsel in connection with a federal habeas corpus proceeding challenging his criminal conviction
and death sentence. Sterling v. Scott, 57 F.3d 451, 454 (5th Cir. 1995), cert. denied, 516 U.S. 1050
(1996). In March, 2006, Congress repealed 21 U.S.C. Section 848(q) and simultaneously re-enacted
2

Case 5:15-cv-00451-XR Document 2 Filed 06/03/15 Page 3 of 6

same in substantially similar form as new 18 U.S.C. Section 3599. Petitioner requests that this Court
appoint qualified counsel to represent Petitioner herein pursuant to Section 3599. Petitioner has
requested that this Court appoint the Federal Community Defender Office for the Eastern District
of Pennsylvania to represent Petitioner herein pursuant to the Guide to Judiciary Policy, Volume 7,
Section 440. This Court will grant Petitioner’s request.
Accordingly, it is hereby ORDERED that:
1. Petitioner's motion for appointment of counsel, filed June 1, 2015, (ECF no. 1), is
GRANTED. The Federal Community Defender Office for the Eastern District of Pennsylvania is
appointed to represent Petitioner herein pursuant to the Guide to Judiciary Policy, Volume 7, Section
440. Attorney Stuart B. Lev, whose mailing address is 8217 Forest Hill Drive, Elkins Park,
Pennsylvania 19027, and whose office telephone number is (215) 928-0520, is appointed lead
counsel of record for Petitioner herein and attorney Peter Walker, whose mailing address is 3455
Indian Queen Lane, Philadelphia, Pennsylvania 19129, and whose office telephone number is (713)
829-6407 is appointed as co-counsel for Petitioner herein.
2. On or before October 9, 2015, Petitioner shall file, and serve on the PostConviction Litigation Division of the Office of the Texas Attorney General, his federal habeas
corpus petition in this cause and include therein all grounds for federal habeas corpus relief
Petitioner wishes this Court to consider in connection with his capital murder conviction and death
sentence.
3. Respondent shall file his answer to Petitioner's federal habeas corpus petition or other
responsive pleading on or before sixty days after receipt of a copy of Petitioner's federal habeas
petition. Respondent's answer or other responsive pleading shall conform to the requirements of
3

Case 5:15-cv-00451-XR Document 2 Filed 06/03/15 Page 4 of 6

Rule 5 of the Rules Governing Section 2254 Cases in the United States District Courts and Rule 12
of the Federal Rules of Civil Procedure.
4. Respondent shall serve Petitioner's counsel of record with a copy of said answer or other
responsive pleading in accordance with the provisions of Rule 5(b), Federal Rules of Civil
Procedure.
5. Exhaustion and Procedural Bar Issues. Respondent shall clearly and directly respond to
the issue of whether Petitioner has exhausted available state remedies with regard to each of the
grounds for federal habeas corpus relief set forth in Petitioner's pleadings filed in this cause as of this
date. If Respondent denies that Petitioner has exhausted available state remedies with regard to each
ground for federal habeas relief set forth in Petitioner's pleadings herein, Respondent shall explain,
in detail, those state remedies still available to Petitioner with regard to each unexhausted claim. In
the event that Respondent wishes to assert the defense that the Petitioner has procedurally defaulted
on any claim for relief contained in Petitioner's federal habeas corpus petition, Respondent shall
explicitly assert that defense and identify with specificity which of the Petitioner's claims the
Respondent contends are procedurally barred from consideration by this Court.
6. Abuse of the Writ. In the event that Respondent wishes to assert the defense that the
Petitioner has abused the writ, Respondent shall explicitly assert that defense and identify with
specificity which of the Petitioner's claims herein either were included in a prior federal habeas
corpus petition by Petitioner or could, with the exercise of diligence on Petitioner's part, have been
included in an earlier federal habeas petition by Petitioner.
7. Second or Successive Petition. In the event that the Respondent wishes to assert the
defense that this is a second or successive petition filed by the Petitioner attacking the same state
4

Case 5:15-cv-00451-XR Document 2 Filed 06/03/15 Page 5 of 6

criminal proceeding and that the Petitioner has failed to comply with the requirements of 28 U.S.C.
Section 2244, the Respondent shall explicitly assert that defense.
8. Limitations. In the event that Respondent wishes to assert the defense that the Petitioner
has failed to file this federal habeas corpus action within the one-year statute of limitations set forth
in 28 U.S.C. Section 2244(d), Respondent shall explicitly assert that defense and identify with
specificity the date on which the one-year limitations period began to run and all time periods during
which that limitations period was tolled.
9. State Court Records. On or before thirty days after the date Respondent files his answer
or other responsive pleading in this cause, Respondent shall submit to the Clerk of this Court true
and correct copies of all pertinent state court records from Petitioner's state court proceedings.
10. Petitioner's Reply. On or before twenty days after the date Respondent serves Petitioner's
counsel of record with a copy of Respondent's answer or other responsive pleading, Petitioner shall
file with the Clerk of this Court and serve on Respondent's counsel of record any reply he wishes to
make to Respondent's answer or other responsive pleading.
11. Extensions. Any party seeking an extension on any of the foregoing deadlines shall file
a written motion requesting such extension prior to the expiration of the deadline in question and
shall set forth in such motion a detailed description of the reasons why that party, despite the exercise
of due diligence, will be unable to comply with the applicable deadline.
12. Filing Fee. On or before thirty days from the date of this Order, Petitioner shall either
(1) pay the five dollar filing fee in this cause to the Clerk of this Court or (2) file a completed
application for leave to proceed in forma pauperis, including a certified copy of Petitioner’s inmate
trust account statement available from the law librarian at Petitioner’s TDCJ facility.
5

Case 5:15-cv-00451-XR Document 2 Filed 06/03/15 Page 6 of 6

13.

The Clerk shall send a copy of this Order via first class mail with a receipt

acknowledgment card enclosed to (1) Petitioner, (2) Petitioner’s counsel of record, and (3) the PostConviction Litigation Division of the Office of the Attorney General of the State of Texas, attention
Stephen Hoffman.
SIGNED this 3rd day of June, 2015.

_________________________________
XAVIER RODRIGUEZ
UNITED STATES DISTRICT JUDGE

6

8/11/2021

19-70002 Docket

PACER fee: Exempt
General Docket
United States Court of Appeals for the Fifth Circuit
Court of Appeals Docket #: 19-70002
Nature of Suit: 3535 Habeas Corpus - Death Penalty
Luna v. Lumpkin
Appeal From: Western District of Texas, San Antonio
Fee Status: In Forma Pauperis

Docketed: 01/07/2019
Termed: 10/22/2020

Case Type Information:
1) Death Penalty w/ Counsel
2) State
3)
Originating Court Information:
District: 0542-5 : 5:15-CV-451
Originating Judge: Xavier Rodriguez, U.S. District Judge
Date Filed: 06/01/2015
Date NOA Filed:
12/31/2018

Date Rec'd COA:
01/02/2019

Prior Cases:
None
Current Cases:
None
Panel Assignment:

Not available

Joe Michael Luna
Petitioner - Appellant

Peter James Walker
Direct: 215-928-0520
Email: peter_walker@fd.org
Fax: 215-928-0826
[COR LD NTC CJA Appointment]
Federal Commmunity Defender Office
Eastern District of Pennsylvania
Suite 545-W.
601 Walnut Street
Curtis Center
Philadelphia, PA 19106-0000
Stuart Lev
Direct: 215-928-0520
Email: stuart_lev@fd.org
Fax: 215-928-0826
[COR NTC Fed Public Defender]
Federal Commmunity Defender Office
Eastern District of Pennsylvania
5th Floor
601 Walnut Street
Curtis Center
Philadelphia, PA 19106-0000

v.
Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division
Terminated: 08/13/2020
Respondent - Appellee
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division
Respondent - Appellee

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

Katherine D. Hayes, Assistant Attorney General
Email: katherine.hayes@oag.texas.gov
[COR LD NTC Government]
Office of the Attorney General
Criminal Appeals Division
P.O. Box 12548
Austin, TX 78711-2548
1/9

8/11/2021

19-70002 Docket

Kyle D. Highful
Direct: 512-936-1826
Email: kyle.highful@oag.texas.gov
[COR LD NTC Government]
Office of the Attorney General
Office of the Solicitor General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

2/9

8/11/2021

19-70002 Docket

Joe Michael Luna,
Petitioner - Appellant
v.
Bobby Lumpkin, Director, Texas Department of Criminal Justice, Correctional Institutions Division,
Respondent - Appellee

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

3/9

8/11/2021

19-70002 Docket

01/07/2019
3 pg, 36.84 KB

DEATH PENALTY CASE docketed. NOA filed by Appellant Mr. Joe Michael Luna [19-70002] (MRW)
[Entered: 01/07/2019 03:16 PM]

1 pg, 139.27 KB

APPEARANCE FORM received from Mr. Peter James Walker for Mr. Joe Michael Luna for the court's
review. Lead Counsel? Yes. [19-70002] (Peter James Walker ) [Entered: 01/09/2019 03:12 PM]

01/09/2019
01/10/2019
1 pg, 123.54 KB

01/11/2019

TRANSCRIPT ORDER received advising transcript unnecessary [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: TRANSCRIPT
ORDER received from Appellant Mr. Joe Michael Luna advising transcript unnecessary Date of Service:
01/10/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellant: Walker [19-70002] (Peter
James Walker ) [Entered: 01/10/2019 09:47 AM]
APPEARANCE FORM FILED by Attorney Peter James Walker for Appellant Joe Michael Luna in 1970002 [19-70002] (MRW) [Entered: 01/11/2019 10:30 AM]

01/11/2019
3 pg, 171.41 KB

01/11/2019

INITIAL CASE CHECK by Attorney Advisor complete, Action: Case OK to Process. [8958795-2] Initial AA
Check Due satisfied. [19-70002] (MRW) [Entered: 01/11/2019 10:32 AM]
ELECTRONIC RECORD ON APPEAL REQUESTED FROM DISTRICT COURT for 5:15-CV-451.
Electronic ROA due on 01/28/2019. [19-70002] (MRW) [Entered: 01/11/2019 10:53 AM]

01/14/2019
1 pg, 192.68 KB

APPEARANCE FORM received from Ms. Katherine D. Hayes for Ms. Lorie Davis, Director, Texas
Department of Criminal Justice, Correctional Institutions Division for the court's review. Lead Counsel?
Yes. [19-70002] (Katherine D. Hayes ) [Entered: 01/14/2019 02:43 PM]

01/14/2019

APPEARANCE FORM FILED by Attorney Katherine D. Hayes for Appellee Lorie Davis, Director, Texas
Department of Criminal Justice, Correctional Institutions Division in 19-70002 [19-70002] (MRW) [Entered:
01/14/2019 03:00 PM]

01/30/2019

ELECTRONIC RECORD ON APPEAL FILED. Exhibits on File in District Court? No. State Court Papers
included? Yes. Electronic ROA deadline satisfied. [19-70002] (MRW) [Entered: 01/30/2019 08:44 AM]

01/30/2019
3 pg, 120.43 KB

LETTER ISSUED. Motion for COA and brief in support are required. Motion due on 03/11/2019 for
Appellant Joe Michael Luna. Brief in Support due on 03/11/2019 for Appellant Joe Michael Luna [1970002] (MRW) [Entered: 01/30/2019 08:47 AM]

5 pg, 96.07 KB

UNOPPOSED MOTION filed by Appellant Mr. Joe Michael Luna to extend time to comply with COA
requirements until 04/10/2019 [8996221-2]. Date of service: 03/01/2019 via email - Attorney for Appellee:
Hayes; Attorney for Appellant: Walker [19-70002] (Peter James Walker ) [Entered: 03/01/2019 01:47 PM]

2 pg, 105.35 KB

COURT ORDER granting Motion to extend time to comply with COA requirements filed by Appellant Mr.
Joe Michael Luna [8996221-2] Motion due deadline updated to 04/10/2019 for Appellant Joe Michael
Luna. Brief in Support deadline updated to 04/10/2019 for Appellant Joe Michael Luna [19-70002] (MFY)
[Entered: 03/04/2019 01:25 PM]

03/01/2019

03/04/2019

03/29/2019
6 pg, 98.67 KB

03/29/2019
1 pg, 71.77 KB

04/24/2019
81 pg, 2.71 MB

04/24/2019
5 pg, 97.69 KB

04/24/2019
1 pg, 137.83 KB

04/24/2019

UNOPPOSED MOTION filed by Appellant Mr. Joe Michael Luna to extend time to comply with COA
requirements until 04/24/2019 [9017593-2]. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: UNOPPOSED
LEVEL 1 EXTENSION REQUESTED by Appellant Mr. Joe Michael Luna for filing Application for
Certificate of Appealability until 04/24/2019 [19-70002] (Peter James Walker ) [Entered: 03/29/2019 03:14
PM]
COURT ORDER granting motion to extend time to comply with COA requirements filed by Appellant Mr.
Joe Michael Luna [9017593-2] Motion due deadline updated to 04/24/2019 for Appellant Joe Michael
Luna. Brief in Support deadline updated to 04/24/2019 for Appellant Joe Michael Luna [19-70002] (DLM)
[Entered: 03/29/2019 04:02 PM]
OPPOSED MOTION for certificate of appealability [9036716-2]. Motion due deadline satisfied..
Response/Opposition due on 05/24/2019. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: MOTION filed by
Appellant Mr. Joe Michael Luna for certificate of appealability [9036716-2]. Date of service: 04/24/2019 via
email - Attorney for Appellee: Hayes; Attorney for Appellant: Walker [19-70002] (Peter James Walker )
[Entered: 04/24/2019 03:45 PM]
OPPOSED MOTION filed by Appellant Mr. Joe Michael Luna to establish briefing notice[9036725-2]. Date
of service: 04/24/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellant: Walker [19-70002]
(Peter James Walker ) [Entered: 04/24/2019 03:49 PM]
APPEARANCE FORM for the court's review. Lead Counsel? No. [19-70002] (Stuart Lev ) [Entered:
04/24/2019 03:54 PM]
BRIEF IN SUPPORT filed by Appellant Mr. Joe Michael Luna in support of Motion for certificate of
appealability [9036716-2] (INCORPORATED IN MOTION FOR COA) Brief in Support deadline satisfied.
[9037066-1] [19-70002] (MRW) [Entered: 04/25/2019 09:40 AM]

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

4/9

8/11/2021

19-70002 Docket

04/26/2019

APPEARANCE FORM FILED by Attorney(s) Stuart Lev for party(s) Appellant Joe Michael Luna, in case
19-70002 [19-70002] (MRW) [Entered: 04/26/2019 07:38 AM]

04/26/2019
1 pg, 99.57 KB

04/29/2019
11 pg, 154.2 KB

04/30/2019
6 pg, 97.93 KB

05/01/2019

COURT DIRECTIVE ISSUED The Court requests that Luna's counsel submit by May 1 a letter brief with
any authority supporting its request to brief separately as a non-COA issue its argument that there was a
denial of fair and independent review due to the state habeas court's near verbatim adoption of the State's
proposed findings and conclusions of law." Unlike the first request (which is supported by Norman), this
second issue is not one about the "district court's procedures." It instead is about the state court's
procedures. So it is not readily apparent from the motion filed on April 24 that this second issue does not
need a COA. [9038623-2]. [19-70002] (MRW) [Entered: 04/26/2019 03:45 PM]
RESPONSE/OPPOSITION [9039497-1] to the Motion establish briefing notice filed by Appellant Mr. Joe
Michael Luna in 19-70002 [9036725-2] [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows:
RESPONSE/OPPOSITION filed by Ms. Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division [9039497-1] to the Motion filed by Appellant Mr. Joe Michael Luna
[9036725-2] Date of Service: 04/29/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellants:
Lev, Walker. [19-70002] (Katherine D. Hayes ) [Entered: 04/29/2019 01:36 PM]
UNOPPOSED MOTION filed by Appellant Mr. Joe Michael Luna to extend the time to file a response to
the Court directive of 4/26/19f [9038623-2] , Response/Opposition [9039497-2] filed by Appellee Ms. Lorie
Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division until 05/08/2019
[9040978-2]. Date of service: 04/30/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellants:
Lev, Walker [19-70002] (Peter James Walker ) [Entered: 04/30/2019 02:30 PM]

3 pg, 110.35 KB

COURT ORDER granting Motion to extend time to respond to the court's directiveand file and
incorporated reply filed by Appellant Mr. Joe Michael Luna granted to 5/8/19 [9040978-2] [19-70002]
(MRW) [Entered: 05/01/2019 08:30 AM]

12 pg, 109.55 KB

LETTER BRIEF RESPONSE IN OPPOSITION filed by Mr. Joe Michael Luna [9046971-1] to the Court
Order [9038623-2], Motion filed by Appellant Mr. Joe Michael Luna [9040978-2] Date of Service:
05/07/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellants: Lev, Walker. [19-70002]
(Peter James Walker ) [Entered: 05/07/2019 01:23 PM]

6 pg, 118.09 KB

REPLY filed by Appellant Mr. Joe Michael Luna [9047049-1] to the Response/Opposition filed by Appellee
Ms. Lorie Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division in 1970002 [9039497-2], to the Motion establish briefing notice filed by Appellant Mr. Joe Michael Luna in 1970002 [9036725-2]. [19-70002] (MRW) [Entered: 05/07/2019 02:00 PM]

05/07/2019

05/07/2019

05/16/2019
6 pg, 145.01 KB

05/17/2019
2 pg, 109.36 KB

05/17/2019

UNOPPOSED MOTION filed by Appellee Ms. Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division to extend the time to file a response to the Motion [9036716-2] filed by
Appellant Mr. Joe Michael Luna until 06/24/2019 [9054639-2]. Date of service: 05/16/2019 via email Attorney for Appellee: Hayes; Attorney for Appellants: Lev, Walker [19-70002] (Katherine D. Hayes )
[Entered: 05/16/2019 01:54 PM]
COURT ORDER granting Motion to extend time to file a response until 6/24/19 filed by Appellee Ms. Lorie
Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division [9054639-2] [1970002] (MRW) [Entered: 05/17/2019 08:42 AM]
RESPONSE DUE to Motion for certificate of appealability filed by Appellant Mr. Joe Michael Luna in 1970002 [9036716-2]Response/Opposition deadline updated to 06/24/2019 [19-70002] (MRW) [Entered:
05/17/2019 08:43 AM]

06/24/2019
71 pg, 394.12 KB

RESPONSE/OPPOSITION filed by Ms. Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division [9082289-1] to the Motion filed by Appellant Mr. Joe Michael Luna
[9036716-2] Date of Service: 06/24/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellants:
Lev, Walker. [19-70002] (Katherine D. Hayes ) [Entered: 06/24/2019 10:33 AM]

5 pg, 97.55 KB

UNOPPOSED MOTION filed by Appellant Mr. Joe Michael Luna to file reply to the response in opposition
to the motion for certificate of appealability by 07/29/2019 [9086947-2]. Date of service: 06/28/2019 via
email - Attorney for Appellee: Hayes; Attorney for Appellants: Lev, Walker [19-70002] (Peter James
Walker ) [Entered: 06/28/2019 02:56 PM]

2 pg, 109.84 KB

COURT ORDER granting in part Motion for leave to file a reply filed by Appellant Mr. Joe Michael Luna
[9086947-2] [19-70002] Appellant is allowed to file a reply, but it must be filed within 20 days from the date
the response was filed (not from the date of this order). (MRW) [Entered: 06/28/2019 03:43 PM]

06/28/2019

06/28/2019

07/15/2019
33 pg, 141.7 KB

10/24/2019
14 pg, 192.55 KB

REPLY filed by Appellant Mr. Joe Michael Luna [9097691-1] to the Response/Opposition filed by Appellee
Ms. Lorie Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division
[9082289-2], to the Motion filed by Appellant Mr. Joe Michael Luna [9036716-2]. Date of Service:
07/15/2019 via email - Attorney for Appellee: Hayes; Attorney for Appellants: Lev, Walker. [19-70002]
(Peter James Walker ) [Entered: 07/15/2019 02:35 PM]
NON DISPOSITIVE UNPUBLISHED OPINION FILED. Judge: JLD , Judge: JEG , Judge: GJC; granting in
part Motion for certificate of appealability filed by Appellant Mr. Joe Michael Luna [9036716-2]; [9036725-

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

5/9

8/11/2021

19-70002 Docket

2] [19-70002] (NFD) [Entered: 10/24/2019 11:43 AM]
10/24/2019
4 pg, 129.61 KB

10/30/2019
3 pg, 111.47 KB

11/04/2019
1 pg, 107.3 KB

11/04/2019

BRIEFING NOTICE ISSUED A/Pet's Brief Due on 12/03/2019 for Appellant Joe Michael Luna. [19-70002]
(MRW) [Entered: 10/24/2019 01:04 PM]
COURT ORDER denying as moot Motion establish briefing notice filed by Appellant Mr. Joe Michael Luna
[9036725-2] [19-70002] In light of the court’s grant of a COA on one of Luna’s claim, a schedule for merits
briefing has issued. To the extent Luna desires to raise issues concerning the denial of a hearing in district
court, or the state habeas court’s procedure in making factual findings, that relate to the ineffective
assistance claim that was authorized for appeal, he may do so in his merits brief. If the respondent
believes any such issues required a separate COA, it may make that argument in its merits brief. (MRW)
[Entered: 10/30/2019 10:46 AM]
APPEARANCE FORM for the court's review. Lead Counsel? Yes. [19-70002] (Kyle D. Highful ) [Entered:
11/04/2019 10:07 AM]
APPEARANCE FORM FILED by Attorney(s) Kyle D. Highful for party(s) Appellee Lorie Davis, Director,
Texas Department of Criminal Justice, Correctional Institutions Division, in case 19-70002 [19-70002]
(MRW) [Entered: 11/04/2019 01:15 PM]

11/26/2019
6 pg, 14.66 KB

11/26/2019

UNOPPOSED MOTION to extend time to file brief as appellant until 01/02/2020 [9198413-2]. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: UNOPPOSED
MOTION filed by Appellant Mr. Joe Michael Luna to extend time to file brief as appellant until 01/02/2020
[9198413-2]. Date of service: 11/26/2019 via email - Attorney for Appellees: Hayes, Highful; Attorney for
Appellants: Lev, Walker [19-70002] (Stuart Lev ) [Entered: 11/26/2019 01:35 PM]

2 pg, 110.04 KB

COURT ORDER granting Motion to extend time to file appellant's brief filed by Appellant Mr. Joe Michael
Luna [9198413-2] A/Pet's Brief deadline updated to 01/02/2020 for Appellant Joe Michael Luna [1970002] (MRW) [Entered: 11/26/2019 02:44 PM]

6 pg, 14.88 KB

UNOPPOSED MOTION filed by Appellant Mr. Joe Michael Luna to file brief in excess of the word count
limitation but not to exceed 20,000 words [9216054-2]. Date of service: 12/23/2019 via email - Attorney for
Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [19-70002] (Stuart Lev ) [Entered:
12/23/2019 08:42 AM]

2 pg, 105.77 KB

COURT ORDER. IT IS ORDERED that Appellant's unopposed motion to file their brief in excess of word
count but not to exceed 20,000 words is GRANTED IN PART. The word limit is extended to 17,000 words,
which should be more than enough given the remaining issues. [9216054-2] [19-70002] (MFY) [Entered:
12/23/2019 01:31 PM]

12/23/2019

12/23/2019

01/02/2020
82 pg, 273.07 KB

01/02/2020
130 pg, 1.69 MB

01/02/2020
0 pg, 0 KB

APPELLANT'S BRIEF FILED
A/Pet's Brief deadline satisfied. Appellee's Brief due on 02/03/2020 for Appellee Lorie Davis, Director,
Texas Department of Criminal Justice, Correctional Institutions Division. Paper Copies of Brief due on
01/07/2020 for Appellant Joe Michael Luna. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: APPELLANT'S
BRIEF FILED by Mr. Joe Michael Luna. Date of service: 01/02/2020 via email - Attorney for Appellees:
Hayes, Highful; Attorney for Appellants: Lev, Walker [19-70002] (Stuart Lev ) [Entered: 01/02/2020 02:31
PM]
SUFFICIENT RECORD EXCERPTS FILED. Sufficient Record Excerpts deadline satisfied. Paper Copies
of Record Excerpts due on 01/07/2020 for Appellant Joe Michael Luna. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: RECORD
EXCERPTS FILED. Record Excerpts NOT Sufficient as they require does not contain a cover page with
the name of the court, the court's caption, lower court's information, title of the document and the attorney
name, address and telephone number. Instructions to Attorney: PLEASE READ THE ATTACHED NOTICE
FOR INSTRUCTIONS ON HOW TO REMEDY THE DEFAULT. Sufficient Record Excerpts due on
01/16/2020 for Appellant Joe Michael Luna [19-70002] REVIEWED AND/OR EDITED - The original text
prior to review appeared as follows: RECORD EXCERPTS FILED by Appellant Mr. Joe Michael Luna.
Date of service: 01/02/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for Appellants:
Lev, Walker [19-70002] (Stuart Lev ) [Entered: 01/02/2020 02:35 PM]
PROPOSED SUFFICIENT RECORD EXCERPTS filed by Appellant Mr. Joe Michael Luna [9220979-2]
Date of service: 01/02/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for Appellants:
Lev, Walker [19-70002] (Stuart Lev ) [Entered: 01/02/2020 03:16 PM]

01/08/2020

Paper copies of Appellant Brief filed by Appellant Mr. Joe Michael Luna in 19-70002 received. Paper
copies match electronic version of document? Yes # of Copies Provided: 7. Paper Copies of Brief due
deadline satisfied. [19-70002] (MRW) [Entered: 01/08/2020 12:08 PM]

01/08/2020

Paper copies of Record Excerpts filed by Appellant Mr. Joe Michael Luna in 19-70002 received. Paper
copies match electronic version of document? Yes # of Copies Provided: 4. Paper Copies of Record
Excerpts due deadline satisfied. [19-70002] (MRW) [Entered: 01/08/2020 12:11 PM]

01/21/2020
3 pg, 51.89 KB

MOTION to extend time to file brief of appellee until 03/04/2020 [9234111-2]. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: UNOPPOSED

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

6/9

8/11/2021

19-70002 Docket

MOTION filed by Appellee Ms. Lorie Davis, Director, Texas Department of Criminal Justice, Correctional
Institutions Division to extend time to file brief of appellee until 03/04/2020 [9234111-2]. Date of service:
01/21/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [1970002] (Kyle D. Highful ) [Entered: 01/21/2020 03:34 PM]
01/22/2020
2 pg, 109.89 KB

02/21/2020
3 pg, 57.09 KB

02/21/2020

COURT ORDER granting Motion to extend time to file appellee's brief filed by Appellee Ms. Lorie Davis,
Director, Texas Department of Criminal Justice, Correctional Institutions Division [9234111-2] E/Res's Brief
deadline updated to 03/04/2020 for Appellee Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division [19-70002] (MRW) [Entered: 01/22/2020 08:46 AM]
UNOPPOSED MOTION Appellee Ms. Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division to extend time to file brief of appellee [9256045-2]. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: UNOPPOSED
LEVEL 1 EXTENSION REQUESTED by Appellee Ms. Lorie Davis, Director, Texas Department of Criminal
Justice, Correctional Institutions Division for filing Appellee's Brief until 03/11/2020 [19-70002] (Kyle D.
Highful ) [Entered: 02/21/2020 09:32 AM]

2 pg, 105.41 KB

COURT ORDER granting Motion to extend time to file appellee's brief filed by Appellee Ms. Lorie Davis,
Director, Texas Department of Criminal Justice, Correctional Institutions Division [9256045-2] E/Res's Brief
deadline updated to 03/11/2020 for Appellee Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division [19-70002] (MFY) [Entered: 02/21/2020 02:46 PM]

112 pg, 497.16 KB

OPPOSED MOTION filed by Appellee Ms. Lorie Davis, Director, Texas Department of Criminal Justice,
Correctional Institutions Division to dismiss appeal for lack of jurisdiction [9261812-2]. Date of service:
03/02/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [1970002] (Kyle D. Highful ) [Entered: 03/02/2020 01:43 PM]

03/02/2020

03/05/2020
6 pg, 17.05 KB

03/11/2020
54 pg, 401.56 KB

03/13/2020

RESPONSE/OPPOSITION [9264846-1] to the Motion to dismiss appeal for lack of jurisdiction filed by
Appellee Ms. Lorie Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division
in 19-70002 [9261812-2] [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows:
RESPONSE/OPPOSITION filed by Mr. Joe Michael Luna [9264846-1] to the Motion filed by Appellee Ms.
Lorie Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division [9261812-2]
Date of Service: 03/05/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for Appellants:
Lev, Walker. [19-70002] (Stuart Lev ) [Entered: 03/05/2020 11:08 AM]
APPELLEE'S BRIEF FILED # of Copies Provided: 0 E/Res's Brief deadline satisfied. Reply Brief due on
04/01/2020 for Appellant Joe Michael Luna. Paper Copies of Brief due on 03/17/2020 for Appellee Lorie
Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: APPELLEE'S BRIEF
FILED by Ms. Lorie Davis, Director, Texas Department of Criminal Justice, Correctional Institutions
Division. Date of service: 03/11/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for
Appellants: Lev, Walker [19-70002] (Kyle D. Highful ) [Entered: 03/11/2020 03:54 PM]
Paper copies of Appellee Brief filed by Appellee Ms. Lorie Davis, Director, Texas Department of Criminal
Justice, Correctional Institutions Division in 19-70002 received. Paper copies match electronic version of
document? Yes # of Copies Provided: 7. Paper Copies of Brief due deadline satisfied. [19-70002] (DLM)
[Entered: 03/13/2020 12:30 PM]

03/31/2020
31 pg, 129.46 KB

06/03/2020

APPELLANT'S REPLY BRIEF FILED
Reply Brief deadline satisfied [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: APPELLANT'S
REPLY BRIEF FILED by Mr. Joe Michael Luna. Date of service: 03/31/2020 via email - Attorney for
Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [19-70002] (Peter James Walker )
[Entered: 03/31/2020 01:56 PM]

2 pg, 86.39 KB

SUPPLEMENTAL AUTHORITIES (FRAP 28j) FILED by Appellee Ms. Lorie Davis, Director, Texas
Department of Criminal Justice, Correctional Institutions Division Date of Service: 06/03/2020 via email Attorney for Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [19-70002] (Kyle D. Highful )
[Entered: 06/03/2020 09:24 AM]

2 pg, 121.02 KB

COURT ORDER denying Motion to dismiss appeal for lack of jurisdiction filed by Appellee Ms. Lorie
Davis, Director, Texas Department of Criminal Justice, Correctional Institutions Division [9261812-2] [1970002] As the director now concedes, the appeal is timely in light of Banister v. Davis, 2020 WL 2814300
(U.S. June 1, 2020). (MRW) [Entered: 06/10/2020 07:35 AM]

2 pg, 16.61 KB

SUPPLEMENTAL AUTHORITIES (FRAP 28j) FILED by Appellant Mr. Joe Michael Luna Date of Service:
06/26/2020 via email - Attorney for Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [1970002] (Peter James Walker ) [Entered: 06/26/2020 11:41 AM]

3 pg, 110.49 KB

LETTER OF ADVISEMENT. Reason: advising the parties that BOBBY LUMPKIN, DIRECTOR OF TDCJ
has been substituted as the respondent in place of Lorie Davis [19-70002] (MRW) [Entered: 08/18/2020
02:58 PM]

06/10/2020

06/26/2020

08/18/2020

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

7/9

8/11/2021

19-70002 Docket

10/22/2020
11 pg, 195.85 KB

10/22/2020

UNPUBLISHED OPINION FILED. [19-70002 Affirmed ] Judge: JLD , Judge: JEG , Judge: GJC. Mandate
issue date is 11/13/2020 [19-70002] (NFD) [Entered: 10/22/2020 02:02 PM]
JUDGMENT ENTERED AND FILED. [19-70002] (NFD) [Entered: 10/22/2020 02:05 PM]

1 pg, 50.56 KB

11/05/2020
30 pg, 219.32 KB

11/09/2020

PETITION for rehearing [9436492-2] Mandate issue date canceled.. [19-70002]
REVIEWED AND/OR EDITED - The original text prior to review appeared as follows: PETITION filed by
Appellant Mr. Joe Michael Luna for rehearing [9436492-2]. Date of Service: 11/05/2020 via email Attorney for Appellees: Hayes, Highful; Attorney for Appellants: Lev, Walker [19-70002] (Peter James
Walker ) [Entered: 11/05/2020 11:28 AM]
Paper copies of Petition for rehearing filed by Appellant Mr. Joe Michael Luna in 19-70002 received.
Paper copies match electronic version of document? Yes # of Copies Provided: 4. [19-70002] (DMS)
[Entered: 11/12/2020 04:15 PM]

03/17/2021
2 pg, 139.71 KB

03/25/2021

COURT ORDER denying Petition for rehearing filed by Appellant Mr. Joe Michael Luna [9436492-2]
Mandate issue date is 03/25/2021 [19-70002] (MFY) [Entered: 03/17/2021 08:14 AM]
MANDATE ISSUED. Mandate issue date satisfied. [19-70002] (MRW) [Entered: 03/25/2021 07:44 AM]

11 pg, 295.59 KB

https://ecf.ca5.uscourts.gov/n/beam/servlet/TransportRoom

8/9

